September 3, 2002

HENRY A. PANKEY
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:     Management Advisory – Retail Data Mart System Surveys
             Report Number (EM-MA-02-002)

This is our report on two surveys focusing on the Retail Data Mart System within the
Postal Service (Project Number 01NA034MK000). The Retail Data Mart provides
Postal Service managers information on products sold at both the unit and aggregate
levels. The objectives of the self-initiated surveys were to determine the level of system
usage, satisfaction, and decision-making from the users’ perspective.

Postal Service employees using the system gave it an overall positive rating. They
were generally pleased with the system, indicating that it: provided useful and timely
data; was accurate, reliable, complete; and cost justified. However, users also indicated
that few respondents overall are using the system in the decision-making process in
areas such as inventory, finance, and marketing. Appendix A summarizes the
objective, scope, and methodology limitations of the surveys. Appendix B summarizes
actual survey results of the district managers and Appendix C summarizes those of the
authorized users. Appendices B and C are located on the enclosed CD-Rom. This
report contains no recommendations and is provided for informational purposes.

We appreciate the cooperation and courtesies provided by your staff during this part of
the audit. If you have any questions, please contact Robert J. Batta, director,
eCommerce and Marketing, at (703) 248-2100 or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment
cc: John E. Potter
    John M. Nolan
    Mary Ann Gibson
    Suzanne F. Medvidovich
    Richard J. Strasser, Jr.
    Deborah K. Wilhite
    Anita J. Bizzotto
    Patrick R. Donahoe
    John A. Rapp
    Charles E. Bravo
    Robert L. Otto
    Susan M. Duchek
Retail Data Mart System Surveys                                              EM-MA-02-002




                    RESULTS OF THE RETAIL DATA MART SURVEYS


The Office of Inspector General (OIG) conducted two self-initiated agency-wide surveys
of the Retail Data Mart System. We will refer to the Retail Data Mart System as (the
system) throughout this report. The system is designed to warehouse retail information
captured through the POS One terminals, currently being deployed throughout the
Postal Service, to provide information on products sold at both the unit and aggregate
levels. These surveys were performed by using a random sample of 120 from the
universe of 652 authorized users and all of the 85 district managers. We received an
overall response of 71 (59.2 percent) from the sample of authorized users and
50 (59 percent) from the district managers. We are presenting the survey responses for
informational purposes only.

The responses from both groups gave the system an overall positive rating. In the
opinion of the respondents, the system provided useful and timely data; was accurate,
reliable, and complete; and cost justified. The responses also indicated that there were
plans in the future to utilize the system’s data in the management decision-making
process, with much of the implementation being completed within the next 12 months.

The responses from both groups, however, identified that many individuals are not
using the system’s data in decision-making processes, specifically in the areas of
inventory, marketing, financial, and investigations.

OVERALL SYSTEM RATING

Both groups gave the system an overall positive rating. Comments from both groups
can be found in Appendices B and C under questions 22 and 23.




                                              1
                                   Restricted Information
Retail Data Mart System Surveys                                                                         EM-MA-02-002




                        District Managers (50 reponses)


                Very Useful                         Not at all useful
                                   No Response
                   14%                                     4%
                                       0%                                   Not too useful
                                                                                 10%


  Somewhat Useful
       18%


                                                                             Useful
                                                                              54%




                                                                            Type of                     No. of
                                                                            Response                  Responses    Percentage
                                                                            Somewhat useful               9              18%
                                                                            Very useful                   7              14%
                                                                            No Response                   0                0%
                                                                            Not at all useful             2                4%
                                                                            Not too useful                5              10%
                                                                            Useful                       27              54%




                              Authorized Users (71 responses)



                                  No Response           Not at all useful
                                      0%                       7%
                                                                                      Not too useful
                                                                                           13%
              Very Useful
                 35%




                                                                                             Useful
                                                                                              25%

           Somewhat Useful
                20%
                                                                            Type of                      No. of
                                                                            Response                   Responses   Percentage
                                                                            Somewhat                      14             20%
                                                                            useful
                                                                            Very useful                   25             35%
                                                                            No Response                    0              0%
                                                                            Not at all useful              5              7%
                                                                            Not too useful                9              13%




                                                     2
                                          Restricted Information
Retail Data Mart System Surveys                                                                         EM-MA-02-002




TIMELINESS AND USEFULNESS OF THE SYSTEM’S REPORTS

Both groups addressed the timeliness and usefulness of the system’s reports.
However, 29 of the district managers and 37 of the authorized users did not provide a
response. Comments from both groups can be found in Appendices B and C under
questions 12, 13, and 13a.

                                  R e p o rt T im e lin e s s
                                  D is tric t M a n a g e rs



                                                   D is a g re e
                      N e ith e r                                  S tro n g ly
                                                       0%
                 Ag re e /D is a g re e                            D is a g re e
                          4%                                           0%



                                                                      N o R esponse
 Ag re e                                                                   58%
  32%




   S tro n g ly Ag re e
           6%                                                                                            No. of
                                                                                   Type of Response    Responses    Percentage
                                                                                   Strongly Agree          3            6%
                                                                                   Agree                  16           32%
                                                                                   Neither                 2            4%
                                                                                   Agree/Disagree
                                                                                   Disagree                0            0%
                                                                                   Strongly Disagree        0            0%
                                                                                   No Response             29           58%




                                          Report Timeliness
                                          Authorized Users
                                               Disagree                       Strongly
              Neither
                                                  3%                          Disagree
           Agree/Disagree
                 6%                                                              0%



                      Agree
                       24%

                                                                          No Response
                                                                              52%
                       Strongly Agree                                                                    No. of
                            16%                                                    Type of Response    Responses   Percentage
                                                                                   Strongly Agree         11          16%
                                                                                   Agree                  17          24%
                                                                                   Neither                 4           6%
                                                                                   Agree/Disagree
                                                                                   Disagree               2            3%
                                                                                   Strongly Disagree      0            0%
                                                                                   No Response            37           52%
                                                               3
                                                    Restricted Information
Retail Data Mart System Surveys                                                                   EM-MA-02-002




                                   Report Usefulness
                                   District Managers

                                          Disagree
                                             2%
                       Neither                        Strongly
                    Agree/Disagree                    Disagree
                          4%                             0%
          Agree
           26%


                                                                 No Response
                                                                     58%

       Strongly Agree
            10%

                                                                                                   No. of
                                                                             Type of Response    Responses    Percentage
                                                                             Strongly Agree          5               10%
                                                                             Agree                  13               26%
                                                                             Neither                 2                4%
                                                                             Agree/Disagree
                                                                             Disagree                1                2%
                                                                             Strongly Disagree        0               0%
                                                                             No Response             29              58%




                                Reports Usefulness
                                 Authorized Users

                     Neither             Disagree
                  Agree/Disagree            0%                    Strongly
                        4%                                        Disagree
                                                                     0%


                        Agree
                         21%                                        No Response
                                                                        52%



                  Strongly Agree
                       23%


                                                                                                 No. of
                                                                             Type of Response    Responses   Percentage
                                                                             Strongly Agree          16            23%
                                                                             Agree                   15            21%
                                                                             Neither                  3              4%
                                                                             Agree/Disagree
                                                                             Disagree               0               0%
                                                                             Strongly Disagree      0               0%
                                                                             No Response            37             52%




                                                        4
                                             Restricted Information
Retail Data Mart System Surveys                                                               EM-MA-02-002




ACCURACY, RELIABILITY, AND COMPLETENESS OF THE SYSTEM

Responses from both groups indicated that the data provided by the system was
accurate, reliable, and complete. However, 29 of the district managers and 37 of the
authorized users did not provide a response. Comments from both groups can be
found in Appendices B and C under questions 9, 10, 11, and 13a.


                                 System Accuracy
                                 District Managers

                       Neither                                Disagree
                    Agree/Disagree                               6%
                          6%


                       Agree                                          Strongly Disagree
                        20%                                                  2%



          Strongly Agree
               8%
                                                                No Response
                                                                    58%



                                                                                             No. of
                                                                         Type of Response    Responses   Percentage
                                                                         Strongly Agree           4              8%
                                                                         Agree                   10             20%
                                                                         Neither                  3              6%
                                                                         Agree/Disagree
                                                                         Disagree               3               6%
                                 System Accuracy                         Strongly Disagree       1              2%
                                                                         No Response            29             58%
                                 Authorized Users

                                                                    Disagree
                    Agree               Neither
                                                                       6%
                     24%             Agree/Disagree
                                           7%
                                                             Strongly
                                                             Disagree
   Strongly Agree
                                                                0%
        11%



                                                       No Response
                                                           52%




                                                                                               No. of
                                                                         Type of Response    Responses   Percentage
                                                                         Strongly Agree          7              11%
                                                                         Agree                  18              24%
                                                                         Neither                 5               7%
                                                                         Agree/Disagree
                                                                         Disagree               4               6%
                                                                         Strongly Disagree      0               0%
                                                                         No Response            37             52%

                                                      5
                                           Restricted Information
Retail Data Mart System Surveys                                                           EM-MA-02-002




                                  System Reliability
                                  District Managers
                                                                   Disagree
                                        Neither                       2%
                                     Agree/Disagree
                                           6%
                                                                         Strongly Disagree
                    Agree
                                                                                2%
                     22%

          Strongly Agree
               10%
                                                                            No Response
                                                                                58%




                                                                                       No. of
                                                                  Type of              Responses      Percentage
                                                                  Response
                                                                  Strongly Agree                5           10%
                                                                  Agree                        11           22%
                                                                  Neither                       3            6%
                                                                  Agree/Disagree
                                                                  Disagree                     1             2%
                                                                  Strongly                     1             2%


                                  System Reliability
                                  Authorized Users

                                                           Neither
                                    Agree
                                                        Agree/Disagree
                                     24%
                                                              9%


             Strongly Agree                                      Disagree
                  10%                                               4%
                                                              Strongly Disagree
                                                                     1%



                                                                    No Response
                                                                        52%




                                                                                     No. of
                                                            Type of Response         Responses      Percentage
                                                            Strongly Agree                7                10%
                                                            Agree                        18                24%
                                                            Neither                       6                 9%
                                                            Agree/Disagree
                                                            Disagree                      3                4%
                                                            Strongly Disagree             0                1%
                                                            No Response                   37              52%


                                              6
                                   Restricted Information
Retail Data Mart System Surveys                                                                       EM-MA-02-002




                               System Completeness
                                 District Managers



                                      Neither
                                                         Disagree
                                   Agree/Disagree
                       Agree                               10%
                                         8%
                        20%
                                                                Strongly Disagree
      Strongly Agree                                                   0%
           4%

                                                                           No Response
                                                                               58%




                                                                                           No. of
                                                                         Type of           Responses       Percentage
                                                                         Response
                                                                         Strongly Agree         2                 4%
                                                                         Agree                  10               20%
                                                                         Neither                 4                8%
                                                                         Agree/Disagree
                                                                         Disagree                 5              10%
                                                                         Strongly                 0               0%



                                   System Completeness
                                     Authorized Users

                           Agree                           Neither
                            23%                         Agree/Disagree
                                                             10%
                                                                                Disagree
                                                                                   9%
      Strongly Agree
                                                                                 Strongly Disagree
           7%
                                                                                        0%




                                                                                    No Response
                                                                                        52%




                                                                                               No. of
                                                                    Type of Response         Responses       Percentage
                                                                    Strongly Agree               5                   7%
                                                                    Agree                       16                  23%
                                                                    Neither                      8                  10%
                                                                    Agree/Disagree
                                                                    Disagree                          5               9%
                                                                    Strongly Disagree                 0               0%
                                                                    No Response                       37             52%




                                                      7
                                           Restricted Information
Retail Data Mart System Surveys                                                         EM-MA-02-002



COST JUSTIFICATION FOR THE SYSTEM

Both groups of respondents concluded that the system was cost justified. Comments
from both groups can be found in Appendices B and C under question’s 28 and 28a.

                                        Cost Justification


            District Managers (50)                        Authorized Users (71)

     NO
                                                     No
     12
                                                     12




                                        Yes
                                                                               Yes
                                        38
                                                                                59




FUTURE UTILILIZATION OF THE SYSTEM

Both groups of respondents indicated that there were future plans to utilize the system’s
data in the management decision-making process. Comments from both groups can be
found in Appendices B and C under question’s 16 and 16a.

                                        Future Utilization


           District Managers (50)                      Authorized Users (71)

      No
      11
                                                No
                                                32
                                                                                  Yes
                                                                                  39
                                  Yes
                                  39




                                                   8
                                        Restricted Information
Retail Data Mart System Surveys                                                                  EM-MA-02-002



USE OF SYSTEM DATA IN THE DECISION-MAKING PROCESS

The responses from both groups indicated that some individuals use the data from the
system’s reports to make decisions. Comments from both groups can be found in
Appendices B and C under question’s 8 and 13a.

                         Use of System Data in the Decision-Making Process
          District Managers (50)                          Authorized Users (71)



                                        Yes
                                         31                                         Yes
                                                                                    50
                                                    No
    No
                                                    21
    19




USE OF SYSTEM DATA FOR DECISION-MAKING IN SPECIFIC AREAS

Both groups indicated that data from the system’s reports was not always being used in
the decision-making process. Comments from both groups related to inventory,
marketing, financial and investigations can be found in Appendices B and C under
questions 3, 4, 5, and 6, respectively.

Responses from district managers and authorized users indicated that few of the
respondents are using the system’s data to make decisions in inventory areas. Many
managers and authorized users indicated the use of standard field accounting system
unit revenue data access,1 but other reports are also listed in 17a.

                                        Used for Inventory Decisions
               District Managers (50)                                    Authorized Users (71)
                                         Yes
                                          11                                                     Yes
                                                                                                  10




         No
         39                                                         No
                                                                    61




1
    Standard field accounting system unit revenue data access – SURDA.

                                                          9
                                               Restricted Information
Retail Data Mart System Surveys                                                      EM-MA-02-002



Responses from district managers and authorized users indicated that some of the
respondents are using the system’s data to make decisions in marketing areas. Many
district managers indicated the use of standard field accounting system unit revenue
data access for reports in the marketing area. (See question 18a.)

                                  Used for Marketing Decisions


        District Managers (50)                       Authorized Users (71)
                                                                              Yes
                                                                              27
  No                                          No
  27                                          43
                                    Yes
                                    23




Responses from district managers and authorized users indicated that few of the
respondents are using the system’s data to make decisions in financial areas. Many
district managers and authorized users indicated the use of standard field accounting
system unit revenue data access for reports in the financial area. (See question 19a.)

                                  Used for Financial Decisions


           District Managers (50)                            Authorized Users (71)
                                                                                     Yes
                                          Yes
                                                                                     25
                                          15



                                                     No
  No                                                 46
  35




                                                    10
                                          Restricted Information
Retail Data Mart System Surveys                                                          EM-MA-02-002



Responses from district managers and authorized users indicated that few of the
respondents are using the system’s data to make decisions in investigation areas.

                                  Used for Investigative Decisions



            District Managers (50)                               Authorized Users (71)

                                         Yes                                        Yes
                                          7                                         20




  No
  43                                                             No
                                                                 51




                                                  11
                                        Restricted Information
Retail Data Mart System Surveys                                       EM-MA-02-002




                       APPENDIX A
     OBJECTIVE, SCOPE, AND METHODOLOGY LIMITATIONS

Objective

The OIG’s January 31, 2002, Retail Data Mart audit announcement letter listed
four specific objectives. These surveys satisfy objective number two, to
determine whether and how the Retail Data Mart System is being used.

Scope Limitations

•   We did not project the results of the sample to the universe, since sample
    data was incomplete.

•   Appendices B and C contain actual results of surveys except for data which
    may link responses to the respondent.

Methodology

The OIG conducted two agency-wide surveys of the Retail Data Mart System.
These surveys were performed by using a random sample of 120 from the
universe of 652 authorized users and all of the 85 district managers. We
received an overall response of 71 (59.2 percent) from the sample of authorized
users and 50 (59 percent) from the district managers. We are presenting the
survey responses for informational purposes only. Conclusions in our summary
are based on actual survey data.




                                            12
                                  Restricted Information
